f

Appendix A
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT

No. 19-40966
Summary Calendar
JOE BLESSETT,
Plaintiff-Appellant,
v.
BEVERLY ANN GARCIA,
Defendant-Appellee.
Appeal from the United States District
Court
for the Southern District of Texas
USDC No. 3:18-CV-137
June 8, 2020

Before OWEN, Chief Judge, and SOUTHWICK
and WILLETT, Circuit Judges.
PER CURIAM:!
1 Pursuant to 5TH ClR. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5TH
CIR. R. 47.5.4.

t—I
aj
00

03
Q_

Pro se appellant Joe Blessett sued his exwife, Beverly Ann Garcia, in federal district
court alleging numerous claims that can be
categorized as challenges to a series of prior
state court proceedings and allegations that
Garcia had committed fraud. The district court
dismissed the first category of claims pursuant
to
the
Rooker-Feldman
doctrine.2
It
subsequently dismissed the second category of
claims after concluding each allegation failed
to state a claim upon which relief can be
granted. We affirm.
I Blessett and Garcia divorced on
July 23, 1999. In the final divorce
decree, Garcia received primary custody
of Blessett and Garcia’s only child,
Joseph C. Blessett, Jr. The final divorce
decree also ordered Blessett to pay $800
per month in child support.
Blessett failed to pay child support over the
course of the next several years. As a result,
Garcia sought a state court judgment for child
support arrears in July of 2015. Blessett did
not attend the proceedings. He was ultimately
held liable for $131,923.14 in outstanding child
support and was ordered to begin making
payments immediately. In June of 2016,
Garcia sought a writ of withholding in Texas
state court in order to garnish Blessett’s wages
for the outstanding child support. She also
filed a lien against certain real property thenowned by Blessett (the Property).
In response to the lien, Blessett filed suit in
2 See generally Dist. of Columbia Court of
Appeals u. Feldman, 460 U.S. 462 (1983); Rooker v. Fid.
TV. Co., 263 U.S. 413 (1923).

CM

<u

CuO
CD

Cl.

Texas state court seeking a partial release of
the lien on the basis that the Property
qualified
as
his
homestead.
Garcia
countersued. She alleged that the lien was
proper and sought the right to foreclose on the
Property. As part of discovery, Garcia inquired
into Blessett’s allegations that the Property
was an exempt homestead. Blessett failed to
respond. Garcia’s counsel thereafter filed in
the real property records an affidavit alleging
the Property did not qualify as a homestead.
Garcia moved for summary judgment on
the basis that Blessett had judicially admitted
he did not own any exempt real property by
failing to respond to discovery.3 Blessett did
not respond to the motion. The state court
entered a final judgment in Garcia’s favor,
concluding the Property did not qualify as a
homestead and was thus subject to Garcia’s
child support lien. Garcia was also granted the
right to foreclose on the Property. Blessett did
not appeal the judgment. The Property was
sold at a constable auction in December of
2017.
After the sale, Blessett initiated the instant
proceedings in United States District Court.
The district judge initially dismissed the action
for want of subject matter jurisdiction.
Following an intervening opinion from this
court in a related case,4 however, the district
3 See Marshall v. Vise, 767 S.W.2d 699, 700 (Tex.
1989) (noting that under Texas law, “[unanswered
requests for admissions are automatically deemed
admitted, unless the court on motion permits their
withdrawal or amendment”).
4 See Blessett v. Tex. Office ofAtt’y Gen.

CD
QJ

00

03
Q-

court sua sponte withdrew its previous
opinion, reinstated Blessett’s case, and ordered
him to file an amended complaint. The district
court expressly instructed Blessett that failure
to plead any allegations of fraud with
particularity would result in dismissal of those
claims with prejudice.
Blessett’s amended compliant included
claims related to previous state court
proceedings, as well as five separate
allegations of fraud. Garcia moved to dismiss
the complaint, alleging, inter alia, that the
court lacked subject matter jurisdiction over
the case and that any remaining claims either
failed to state a claim upon which relief can be
granted or failed to comply with Rule 9(b)’s
heightened pleading standards. The district
court ultimately granted the motion.
Pursuant to the Rooker-Feldman doctrine,
the district court dismissed the amended
complaint to the extent it “collaterally
attacked] the state court divorce decree,
judgments concerning paternity and child
support, or the foreclosure order.” It
subsequently dismissed the five allegations of
fraud after concluding each allegation failed to
comply
with the
heightened pleading
standards required by Rule 9(b) of the Federal
Rules of Civil Procedure. This appeal followed.
II
We first consider whether the district court
had subject matter jurisdiction to entertain
each of the claims alleged in Blessett’s
complaint. As previously mentioned, the
Galveston Cty. Child Support Enf’t Div., 756 F. App’x
445 (5th Cir. 2019) (per curiam).

(U

ro

CL

district court dismissed portions of Blessett’s
complaint pursuant to the Rooker-Feldman
doctrine. The court concluded, however, that it
had subject matter jurisdiction to entertain
each of Blessett’s fraud claims. Reviewing de
novo, we agree with the district court’s
analysis in full.5
At its core, “the Rooker-Feldman doctrine
holds that inferior federal courts do not have
the power to modify or reverse state court
judgments except when authorized by
Congress.”6 “[T]he doctrine is a narrow one.”7
It is limited to those “cases brought by statecourt losers complaining of injuries caused by
state-court judgments rendered before the
district court proceedings commenced and
inviting district court review and rejection of
those judgments.”8 A litigant is seeking
“review and reversal” of a state-court judgment
“when the [federal] claims are ‘inextricably
intertwined’ with a challenged state court
judgment,”9 or when the litigant is requesting
“what in substance would be appellate review
5 See Lane v. Halliburton, 529 F.3d 548, 557
(5th Cir. 2008) (noting that dismissals for want of
subject matter jurisdiction are reviewed de novo).
6Burciaga v. Deutsche Bank Nat’l Tr. Co., 871
F.3d 380, 384 (5th Cir. 2017) (internal quotation marks
omitted) (quoting Truong v. Bank of Am., N.A., 717 F.3d
377, 382 (5th Cir. 2013)).
7 Truong, 717 F.3d at 382.
8 Id. (quoting Exxon Mobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280, 284 (2005)).
9 Weaver v. Tex. Capital Bank N.A., 660 F.3d
900, 904 (5th Cir. 2011) (alteration in original) (quoting
Richard v. Hoechst Celanese Chem. Grp., Inc., 355 F.3d
345, 350 (5th Cir. 2003)).

LO

QJ

OD

03
Q.

of the state judgment.”10
Liberally construing Blessett’s complaint in
light of the aforementioned standards,11 we
agree with the district court that some of
Blessett’s allegations were not cognizable in
federal court. As indicated previously, Blessett
lost in his state court proceedings, proceedings
which had ended long before he initiated the
present matter. Portions of Blessett’s operative
complaint likewise appear to seek review of
those state court proceedings. The complaint
alleges, for example, that Blessett received
insufficient service of process during two
earlier state court proceedings, and that
Garcia failed to follow proper procedures in
Texas state court. Blessett’s “recourse [for each
of these contentions] was with the state
appellate courts and thereafter the United
States Supreme Court on application for a writ
of certiorari, not by a complaint to the federal
district court.”12 Accordingly, the district court
properly dismissed these claims.
Nevertheless, we conclude that the bulk of
Blessett’s complaint— specifically, each of
Blessett’s fraud claims—fell within the district
court’s subject matter jurisdiction. Our court
does not recognize a universal fraud exception
to the Rooker-Feldman doctrine.13 That is, a
10

Id. (quoting Johnson v. De Grandy, 512
U.S. 997, 1005-06 (1994)).
11 See Kaltenbach v. Richards, 464 F.3d 524,
527 (5th Cir. 2006) (construing a complaint liberally in
part because the litigant proceeded pro se).
12 See Liedtke v. State Bar of Tex., 18 F.3d 315,
318 (5th Cir. 1994).
13 Truong v. Bank of Am., N.A., 717 F.3d 377,

CD

<L>
CUD

ro

CL

litigant cannot circumvent the doctrine’s scope
by merely casting his or her challenge to a
state court judgment as an allegation that the
judgment was obtained through fraud.14 If the
relief a litigant requests would in substance
require the federal court to invalidate a prior
state court judgment, the Rooker-Feldman
doctrine may still be implicated.15 Likewise, a
plaintiffs claim may be barred by the RookerFeldman doctrine if he or she is essentially
alleging the state court judge erred in arriving
at a particular conclusion.16 But where a
litigant seeks damages as compensation for the
putatively fraudulent conduct of a litigant in a
prior state court action, the Rooker-Feldman
doctrine is less likely to come into play.17 Each
383 n.3, 384 n.6 (5th Cir. 2013).
14See id. at 383 n.3 (collecting cases where fraud
claims were held to be barred by the Rooker-Feldman
doctrine).
15 See id. at 383-84 (collecting cases where fraud
claims were held to be barred by the Rooker-Feldman
doctrine in part because the relief requested directly
challenged prior state court judgments).
16 See id. at 382-83 (noting that “[i]f a federal
plaintiff asserts as a legal wrong an allegedly erroneous
decision by a state court, and seeks relief from a state
court judgment based on that decision, Rooker-Feldman
bars subject matter jurisdiction in federal district court”
(alteration in original) (quoting Noel v. Hall, 341 F.3d
1148, 1164 (9th Cir. 2003))).
11 See id. at 383 (“If... a federal plaintiff asserts
as a legal wrong an allegedly illegal act or omission by
an adverse party, Rooker-Feldman does not bar
jurisdiction.” (quoting Noel, 341 F.3d at 1164)); see also
id. at 383-84 (collecting cases where the nature of the
requested relief impacted whether the Rooker-Feldman

CD

tiO
CD
CL

of Blessett’s fraud claims passes muster under
these parameters. He seeks monetary damages
because Garcia—an adverse party in several
prior state court proceedings—allegedly
engaged in fraudulent conduct. Consequently,
the district court properly considered these
claims on the merits.
Ill As to the merits of Blessett’s five
fraud
claims,
the
district
court
dismissed
each
allegation
after
concluding each failed to plead fraud
with particularity. Following our own
independent review of the complaint,
we agree that each allegation fails to
state a claim.18
Because each of Blessett’s fraud claims fall
within the court’s diversity jurisdiction, our
analysis is governed by the substantive law of
Texas.19 As a general matter, Texas state law
fraud claims require the plaintiff to offer
sufficient proof of the following six elements:
a
material
(1)
that
representation was made; (2) the
representation was false; (3)
when the representation was
doctrine barred the claims at issue in each case).
18 See Carroll v. Fort James Corp., 470 F.3d
1171, 1173 (5th Cir. 2006) (noting that appellate courts
“review a dismissal pursuant to [Rules] 12(b)(6) or 9(b)
de novo” (citing Herrmann Holdings Ltd. v. Lucent
Techs., Inc., 302 F.3d 552, 557 (5th Cir. 2002))).
19 See Erie R.R. u. Tompkins, 304 U.S. 64, 78
(1938); Universal Truckload, Inc. v. Dalton Logistics,
Inc., 946 F.3d 689, 695 (5th Cir. 2020) (“Under the Erie
doctrine, this court must apply substantive state law in
diversity jurisdiction cases.” (citing Erie, 304 U.S. at
78)).

00

QJ

BD
ro

CL

made, the speaker knew it was
false or made it recklessly
without any knowledge of the
truth and as a positive assertion;
(4) the speaker made the
representation with the intent
that the other party should act
upon it; (5) the party acted in
reliance on the representation;
and (6) the party thereby
suffered injury.20
At least two intermediate courts of appeals
in Texas have recognized a subcategory of
fraud—fraud by omission.21 This sub-category
of claims stems from the basic recognition that
an “omission or nondisclosure may be as
misleading as a positive misrepresentation of
fact where a party has a duty to disclose.”22 “To
survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible
on its face.”23 We “accept all well-pleaded facts
as true, viewing them in the light most
20

Allstate Ins. Co. v. Receivable Fin. Co.,
501 F.3d 398, 406 (5th Cir. 2007) (quoting In re
FirstMerit Bank, N.A., 52 S.W.3d 749, 758 (Tex. 2001)).
21 Dewayne Rogers Logging, Inc. v. Propac
Indus., Ltd., 299 S.W.3d 374, 391 (Tex. App.—Tyler
2009, pet. denied) (citing Four Bros. Boat Works, Inc. v.
Tesoro Petroleum Cos., Inc., 217 S.W.3d 653, 670 (Tex.
App.—Houston [14th Dist.] 2006, pet. denied)).
22 Id. (citing Four Bros. Boat Works, Inc., 217
S.W.3d at 670).
23 Allen v. Walmart Stores, L.L.C., 907 F.3d 170,
177 (5th Cir. 2018) (internal quotation marks omitted)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)); see
also Fed. R. Civ. Pro. 12(b)(6).

CT)
<D

tuo
ro

Q_

favorable to the plaintiff.”24 But “[t]hreadbare
recitals of the elements of a cause of action,
supported by mere conclusory statements,” are
insufficient to state a claim.25 Nor can a
complaint survive if it fails to allege a required
element of the cause of action.26
Furthermore, allegations of fraud must be
pleaded with particularity under the Federal
Rules of Civil Procedure.27 Specifically, Rule
9(b) requires the plaintiff to allege “the time,
place and contents of the false representationA,
as well as the identity of the person making
the misrepresentation and what that person
obtained thereby.”28 The rule is context
specific. Nevertheless, at its core, the rule is
intended to “provide Q defendants with fair
notice of the plaintiffs’ claims, protect Q
24 Allen, 907 F.3d at 177 (quoting Jones v.
Greninger, 188 F.3d 322, 324 (5th Cir.
1999)).
25 Iqbal, 556 U.S. at 678 (citing Bell Ail. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)).
2eAllen, 907 F.3d at 178 (noting that
“[dismissal is proper if the complaint lacks an
allegation regarding a required element necessary to
obtain relief (alteration in original) (quoting Rios v. City
of Del Rio, Tex., 444 F.3d 417, 421 (5th Cir. 2006))).
27 See Fed. R. Civ. Pro. 9(b) (“In alleging fraud
or mistake, a party must state with particularity the
circumstances constituting fraud or mistake. Malice,
intent, knowledge, and other conditions of a person’s
mind may be alleged generally.”).
28IAS Servs. Grp., L.L.C. v. Jim Buckley &
Assocs., Inc., 900 F.3d 640, 647 (5th Cir. 2018)
(alteration in original) (quoting United States ex rel.
Grubbs v. Kanneganti, 565 F.3d 180, 186 (5th Cir.
2009)).

o
T—I

<a

DO

re

CL

defendants from harm to their reputation and
goodwill, reduce [] the number of strike suits,
and preventf] plaintiffs from filing baseless
claims and then attempting to discover
unknown wrongs. ”29 Accordingly, district
courts are permitted to dismiss complaints
with prejudice if plaintiffs fail to comply with
these heightened pleading standards despite
being given numerous opportunities to do so.30
1 Blessett’s first allegation of fraud—
which he titles, “[f]raud by omission of
federal statutes and Texas family
codes”—fails
under
Rule
9(b)’s
heightened pleading standards. The
claim appears to allege that Blessett
was harmed when Garcia failed to
mention two statutes at some point in
time following the couple’s divorce. But
even liberally construing the claim, we
are left to guess when and where the
omission occurred and why Garcia had
a duty to include the statutes at all.
Blessett likewise fails to allege Garcia’s
product
of
omissions
were
the
fraudulent intent. Therefore, Blessett’s
first allegation of fraud fails to pass
29 Id. (alterations in original) (quoting Tuchman
v. DSC Commc’ns Corp., 14 F.3d 1061, 1067 (5th Cir.
1994)).
30 See Hart v. Bayer Corp., 199 F.3d 239, 247
n.6 (5th Cir. 2000) (noting that “[although a court may
dismiss [a] claim [for failure to comply with Rule 9(b)], it
should not do so without granting leave to amend,
unless . . . the plaintiff has failed to plead with
particularity after being afforded repeated opportunities
to do so” (citing O’Brien v. Nat’l Prop. Analysts Partners,
936 F.2d 674, 675-76 (2d Cir. 1991))).

T—I

*—I

d)
DO

ro

Cl.

muster
under
Rule
9(b).
Given
Blessett’s failure to correct these
deficiencies despite being provided
numerous opportunities to amend his
complaint, we conclude the district
court correctly dismissed the first
allegation of fraud with prejudice.31
2 Blessett’s second claim—“[f]raud by
use of an administrative enforcement
action under the color of law”—fails to
state a claim upon which relief can be
granted. The complaint specifically
alleges Garcia suspended Blessett’s
driver’s license without due process of
law. But Blessett fails to allege any
statement or omission by Garcia that
ultimately led to the revocation of his
driver’s license. The gravamen of a
common law fraud claim is a false
statement
or
omission.32
Because
Blessett failed to plead this required
element, his second allegation of fraud
31 See Hart, 199 F.3d at 247 n.6 (noting that
“[although a court may dismiss [a] claim [for failure to
comply with Rule 9(b)], it should not do so without
granting leave to amend, unless . . . the plaintiff has
failed to plead with particularity after being afforded
repeated opportunities to do so” (citing O’Brien, 936 F.2d
at 675-76)).
32 See Allstate Ins. Co. v. Receivable Fin. Co., 501
F.3d 398, 406 (5th Cir. 2007) (quoting In re FirstMerit
Bank, N.A., 52 S.W.3d 749, 758 (Tex. 2001)); Dewayne
Rogers Logging, Inc. v. Propac Indus., Ltd., 299 S.W.3d
374, 391 (Tex. App.—Tyler 2009, pet. denied) (citing
Four Bros. Boat Works, Inc. v. Tesoro Petroleum Cos.,
Inc., 217 S.W.3d 653, 670 (Tex. App.— Houston [14th
Dist.] 2006, pet. denied)).

CsJ
*—I

<u

CUD

CO
CL

fails to state a claim upon which relief
can be granted.33
3 Blessett next alleges Garcia engaged in
“[f]raud by [inducement and [c]oercion.”
Specifically, he contends Garcia threatened
him with the possibility of arrest if he did not
appear at several state court proceedings. But
Blessett fails to allege with particularity the
statements he contends constituted fraud. As
with his first allegation of fraud, we are left
wondering what was said, when the statement
occurred, and why the statement amounted to
fraud. Nor can we deduce this information
from the exhibits he cites in the complaint. The
exhibits are orders to appear from state
judicial officers, not Garcia. Blessett’s
complaint fails to allege with particularity how
any putatively false statement by Garcia may
have prompted state-level judicial officers to
issue
these orders.
Collectively, these
inadequacies amount to a failure to comply
with
Rule
9(b)’s
heightened
pleading
standards. Because Blessett was given ample
opportunities to correct these issues, the
district court did not err in subsequently
dismissing this claim with prejudice.34
33 Allen v. Walmart Stores, L.L.C., 907 F.3d 170,
178 (5th Cir. 2018) (noting that “[d]ismissal is proper if
the complaint lacks an allegation regarding a required
element
necessary to obtain relief (alteration in original)
(quoting Rios v. City of Del Rio, Tex., 444 F.3d 417, 421
(5th Cir. 2006))).
34 See Hart, 199 F.3d at 247 n.6 (noting that
“[although a court may dismiss [a] claim [for failure to

co
t—i

CUD

TO
Q.

4 Blessett
next
alleges
Garcia
engaged in “[f]raud by [pjerjury and
violation of [p]ublic [p]olicy rights to
property.” The factual basis for this
claim lies in the affidavit filed with the
real
property
records
challenging
Blessett’s assertions that his property
qualified as a homestead. We conclude,
however, that this allegation fails to
comply with Rule 9(b)’s heightened
pleading standards. The affidavit—
which counsel authored in his capacity
as a fact witness—is clearly counsel’s
declaration, not Garcia’s. The complaint
fails to plead with particularity to what
extent, if at all, Garcia was involved in
the filing of the affidavit nor why her
involvement
amounted
to
fraud.
Consequently,
the
district
court
correctly dismissed this claim with
prejudice.
5 Blessett’s
final
allegation
of
fraud—“[f]raud by [ojmission to provide
notice as ordered by a [j]udge”—alleges
Garcia failed to provide Blessett with
notice of a status conference during the
state court proceedings he initiated
challenging
Garcia’s
lien
on
his
property. Accordingly, Blessett could
not “defend his rights [at] the status
conference.”
He
then
appears
to
comply with Rule 9(b)], it should not do so without
granting leave to amend, unless . . . the plaintiff has
failed to plead with particularity after being afforded
repeated opportunities to do so” (citing O’Brien, 936 F.2d
at 675-76)).

*—I
CD
Cut)

03
CL

insinuate that his case was dismissed
for want of prosecution as a result. But
this allegation is not plausible. As the
judgment in the state court proceeding
makes
clear,
Blessett’s
case
was
dismissed following Garcia’s motion for
summary judgment, not for want of
prosecution.35 Because the claim does
not plausibly allege Garcia’s putative
harm,
omission
caused
Blessett
Blessett’s claim falls sort of stating a
claim
upon
which
relief can
be
granted.36
IV In summary, the district court
properly dismissed each of Blessett’s
remaining
Blessett’s
claims.
are
either
waived,37
contentions
unnecessary to address in light of our
35 See Lone Star Fund V (U.S.), L.P. v. Barclays
Bank PLC, 594 F.3d 383, 387 (5th Cir. 2010) (noting
that a court, in evaluating a motion to dismiss, can
consider “any documents attached to the complaint, and
any documents attached to the motion to dismiss that
are central to the claim and referenced by the
complaint” (citing Collins v. Morgan Stanley Dean
Witter, 224 F.3d 496, 498-99 (5th Cir. 2000))).
36 See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” (citing Bell Atl. Corp. v. Twombly,
550 U.S. 544, 556 (2007))).
37 See F.D.I.C. v. Mijalis, 15 F.3d 1314, 1327
(5th Cir. 1994) (“[I]f a litigant desires to preserve an
argument for appeal, the litigant must press and not
merely intimate the argument during the proceedings
before the district court.”).

LO
t—I
QJ

00
03
CL

previous holdings, or are dismissed
pursuant to our longstanding policy not
to
consider
inadequately
briefed
arguments on appeal.38
***

The district court’s judgment is
AFFIRMED.

38 See Monteon-Camargo v. Barr, 918 F.3d 423,
428 (5th Cir.), as revised (Apr. 26, 2019) (“Generally
speaking, a [party] waives an issue if he fails to
adequately brief it.” (alteration in original) (quoting
United States v. Martinez, 263 F.3d 436, 438 (5th Cir.
2001))).

kO
T—I
CD
CUD

ro

O-

Appendix B

IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

No. 19-40966
JOE BLESSETT,
Plaintiff — Appellant
v
BEVERLY ANN GARCIA,
Defendant - Appellee

July 10, 2020
Appeal from the United States
District Court
for the Southern District of Texas
ON PETITION FOR REHEARING
Before OWEN, Chief Judge, SOUTHWICK,
and WILLETT, Circuit Judges. PER CURIAM:
IT IS ORDERED that the petition for
rehearing is DENIED.
ENTERED FOR THE COURT:

UNITED STATES CIRCUIT JUDGE
CD

00
CU

D_

Appendix C
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
3:17-CV-164
No. 18-40142
Summary Calendar

JOE BLESSETT,
Plaintiff-Appellant
v.
TEXAS OFFICE OF THE ATTORNEY
GENERAL GALVESTON COUNTY CHILD
SUPPORT ENFORCEMENT DIVISION,
Defendant-Appellee

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 3:17-CV-164

March 6, 2019

00
<D
GO
TO
Q_

Before DENNIS,
CLEMENT,
OWEN, Circuit Judges. PER CURIAM:*

and

Joe Blessett, proceeding pro se, appeals the
district court’s dismissal of his civil complaint
for lack of subject matter jurisdiction pursuant
to the Rooker-Feldman39 40 doctrine. He argues
that
the
Rooker-Feldman
doctrine
is
inapplicable because he did not receive notice
of any of the judicial acts entered against him
in state court and because he is seeking to set
aside state court judgments obtained by
extrinsic fraud. Blessett also complains that
the district court erroneously denied his
motions for entry of a default judgment and his
motion for leave to file an amended complaint.
We review the grant of a Federal Rule of
Civil Procedure 12(b)(1) motion to dismiss for
lack of jurisdiction de novo. Lane v.
Halliburton, 529 F.3d 548, 557 (5th Cir. 2008).
In reviewing the dismissal order, we view “the
well-pled factual allegations of the complaint
as true” and construe them “in the light most
favorable to the plaintiff.” Id.
The Rooker-Feldman doctrine dictates that
federal district courts lack subject matter
jurisdiction over lawsuits that effectively seek
to “overturn” a state court ruling. Eocxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S.
* Pursuant to 5TH CIR. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5TH CIR. R. 47.5.4.
40 Rooker u. Fidelity Trust Co., 263 U.S. 413
(1923); District of Columbia Court ofAppeals u.
Feldman, 460 U.S. 462 (1983).

cn
*—i

O)
CuO
CD
Q_

280, 291 (2005). The doctrine applies to “cases
brought by state-court losers complaining of
injuries caused by state-court judgments
rendered before the district court proceedings
commenced and inviting district court review
and rejection of those judgments.” Id. at 284.
Our review of the complaint reveals that
Blessett asserted claims that collaterally
attack the state court divorce decree and
judgments concerning paternity and child
support, as well as claims that assert
constitutional violations relating to the
enforcement of the state child support
judgments. The former claims are barred
under the Rooker-Feldman doctrine because
they “invit[e] district court review and
rejection” of the state divorce decree and child
support judgments. See Exxon Mobil, 544 U.S.
at 284. Moreover, it is of no help to Blessett
that he claims he failed to receive notice of any
hearing in relation to the child support
arrearage judgment of July 13, 2015, as “
[constitutional questions arising in state
proceedings are to be resolved by the state
courts.” Liedtke v. State Bar of Tex., 18 F.3d
315, 317 (5th Cir. 1994).
We reach a different result as to Blessett’s
claims that the defendant and its “contractors”
engaged
in
fraud
and
violated
his
constitutional rights in their efforts to enforce
and collect the state child support judgments.
Because such claims do not ask the district
court to review and reject a final order of a
state court, they are not barred under the
Rooker-Feldman doctrine. See Truong u. Bank
of Am., N.A., 717 F.3d 377, 382-84 (5th Cir.
2013). Accordingly, we vacate the dismissal of

O
rsj

OJ
OQ
03
CL

such claims and remand to the district court.
As noted, Blessett also challenges the
district court’s denial of his motions for entry
of default judgment against the defendants
based on their failure to answer his amended
complaint. This challenge ignores that the
district court denied leave to file the amended
complaint, and thus the defendants were
under no obligation to respond to an unfiled
pleading. See FED. R. CIV. P. 12(a)(1)(A).
Accordingly, the district court did not abuse its
discretion in denying Blessett’s motions for
entry of a default judgment against the
defendants. See Lewis v. Lynn, 236 F.3d 766,
767 (5th Cir. 2001).
In view of the above determinations, it is
unnecessary to consider Blessett’s arguments
concerning the district court’s denial of his
motion seeking leave to file an amended
complaint.
AFFIRMED IN PART, VACATED IN
PART, AND REMANDED.

^—I
CM

a;

00

TO
CL

APPENDIX D

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
CIVIL ACTION NO. 3:18-CV-00137

JOE BLESSETT,
Plaintiff,
VS
BEVERLY ANN GARCIA, et al,
Defendants.
August 29, 2019

MEMORANDUM OPINION AND
ORDER
Before the Court is Beverly Ann Garcia’s
(“Garcia”) Motion to Dismiss Plaintiffs
Amended Complaint. Dkt. 98. After reviewing
the motion, the response, the reply, and the
applicable law, the motion is GRANTED IN
PART and DENIED IN PART.
Factual Background and Prior
Proceedings On July 23, 1999, a Galveston
County court entered a Final Decree of Divorce

Csl
CM

CD
CUD

CD
CL

between the Plaintiff, Joe Blessett (“Blessett”),
and Garcia. Dkt. 31-1. The decree also
established Blessett’s paternity over a child
born during the marriage and ordered him to
pay child support payments of $800 each
month. Id. at 11. After Blessett consistently
defaulted on this child support obligation for
sixteen years, the county court entered an
order in favor of Garcia confirming child
support arrearage in the amount of
$131,923.14. Dkt. 31-2.
Almost a year later, Garcia used that
order to apply for a judicial writ of withholding
to garnish Blessett’s wages and to place a child
support hen on some of Blessett’s real
property. Dkt. 31-3; Dkt. 31-4. In response,
Blessett filed a lawsuit against
Garcia to have the child support hens
released. Dkt. 31-6. Garcia answered the
lawsuit, and then asserted counterclaims of
her own for “a cumulative money judgment”
and for a declaratory judgment that Blessett
did not own any real property that was exempt
from foreclosure. Dkt. 31-17. On June 30, 2017,
the Galveston County court granted Summary
Judgment in favor of Garcia on each of her
counterclaims. Dkt. 31-32. Blessett did not file
a motion for new trial nor did he appeal the
county court’s order. Dkt. 31 at 11.
Subsequently, Garcia foreclosed on Blessett’s
property, which was ultimately sold at public
auction in partial satisfaction of the child
support arrears he owes. Id.
Since Blessett’s property was sold at
public auction, he has filed this and several
other lawsuits in this Court to collaterally
attack the state-court orders that led to the

no

CM
QJ

DO

ra

Q_

foreclosure of his property.41 On March 4,
2019, the Court dismissed this suit under the
Rooker-Feldman doctrine, because the Court
lacked
subject
matter
jurisdiction
to
collaterally review state court Judgments. Dkt.
82. Two days later, the Fifth Circuit partially
vacated an order dismissing another suit
initiated by Blessett on Rooker- Feldman
grounds. See Blessett v. Tex. Office of the AG
Galveston Cty. Child Support Enf’t Div.
(Blessett Appellate Decision), 756 F. App’x 445,
446 (5th Cir. 2019). In an abundance of
caution, the Court withdrew the order of
dismissal that it issued in this case and
allowed Blessett an opportunity to amend his
complaint consistent with the Fifth Circuit’s
order in the parallel case. Dkt. 88.
In his amended complaint, Blessett
asserts five separate “counts” of fraud against
Garcia. Dkt. 93. Garcia now moves to dismiss
Blessett’s amended complaint under Federal
Rules of Civil Procedure 12(b)(1), 12(b)(6), and
Texas Civil Practice and Remedies Code §
41

See Blessett v. Tex. Office of the AG Galveston
Cty. Child Support Enft Div., No. 3:17-CV-164, 2018
WL 836058, 2018 U.S. Dist. LEXIS 22972 (S.D. Tex.
Feb. 12, 2018); Blessett v. Sinkin Law Firm, No. 3:17CV-370, 2018 WL 1932386, 2018 U.S. Dist. LEXIS
67683 (S.D. Tex. Apr. 23, 2018) (the Court granted
the defendant’s motion to dismiss); Blessett v. Jacoby,
No. 3:18-CV-00153, 2018 WL 5014146, 2018 U.S.
Dist. LEXIS 177837 (S.D. Tex. Oct. 16, 2018) (the
Court granted the defendant’s motion to dismiss);
Blessett et al. v. Galveston County Child Support
Division et al., No. 3:18-CV-00415 (S.D. Tex. Feb.
14, 2018) (parties stipulated to dismissal).

C\l

cu

OO
CD
Q_

27.003(a). For the reasons stated below, the
Court finds that Garcia’s motion to dismiss
should be granted in part on 12(b)(1) and
12(b)(6) grounds.
Standard of Review
“[F]ederal courts are courts of limited
jurisdiction.” Hashemite Kingdom of Jordan v.
Layale Enters. (In re B-727 Aircraft), 272 F.3d
264, 269 (5th Cir. 2001). Thus, a federal
district court is required to presume that it
does not have the jurisdiction to rule on a
matter until “the party asserting jurisdiction”
can prove otherwise. Griffith v. Alcon
Research, Ltd., 712 F. App’x 406, 408 (5th Cir.
2017) (internal quotation marks omitted). To
make its case, the party asserting jurisdiction
may direct the Court to look at “(1) the
(2)
the
complaint
alone;
complaint
supplemented by undisputed facts evidenced in
the record; or (3) the complaint supplemented
by undisputed facts plus the court’s resolution
of disputed facts.” Ramming v. United States,
281 F.3d 158, 161 (5th Cir. 2001). Ultimately,
a court cannot dismiss a claim for lack of
subject matter jurisdiction unless “it appears
certain that [a party] cannot prove any set of
facts” in support of its assertion that
jurisdiction is appropriate in federal court.
Bombardier Aero. Emple. Welfare Benefits Plan
v. Ferrer, Poirot & Wansbrough, P.C., 354 F.3d
348, 351 (5th Cir. 2003).
2
Although the docket report in this
case lists Stett Jacoby as a Defendant in this
matter, the Court finds that he has not been
served, and therefore he is not a party to this
suit. The only Defendant in this case is Garcia.
In that same vein, Blessett cannot allege

LO

C\1

0)
CuO
CO

CL

claims in this case against unidentified
“contractors” either, because the Court has no
jurisdiction over parties not served with
process in this case. Dkt. 93 at 3 (for a
reference to “contractors” who may have
harmed Blessett); see Lifemark Hosps., Inc. v.
Liljeberg Enters. (In re Liljeberg Enters.), 304
F.3d 410, 468 (5th Cir. 2002) (“It is elementary
that one is not bound by a judgment in
personam resulting from litigation in which he
is not designated as a party or to which he has
not been made a party by service of process.”).
If a party is successful in establishing
that the Court has jurisdiction to hear a
dispute, the Court may still dismiss the
dispute where the party fails “to state a claim
upon which relief can be granted.” Fed. R. Civ.
P. 12(b)(6). The Court’s task in this inquiry is
to determine whether “the plaintiff has stated
a legally cognizable claim that is plausible” on
its face. Shandong Yinguang Chem. Indus.
Joint Stock Co. v. Potter, 607 F.3d 1029, 1032
(5th Cir. 2010). With respect to fraud claims, a
Plaintiff must “state with particularity the
circumstances constituting the fraud” in order
to survive this inquiry. Fed. R. Civ. P. 9(b).
This means that a court will dismiss the case
unless the plaintiff can adequately plead “the
who, what, when, where, and how to be laid
out” for a particular fraud allegation.
Benchmark Electronics, Inc. v. J.M. Huber
Corp., 343 F.3d 719, 724 (5th Cir. 2003). In
evaluating a plaintiffs pleadings, the Court
will not “strain to find inferences favorable to
the plaintiffQ,” nor will it “accept conclusory
allegations, unwarranted deductions or legal
conclusions.” Barrie v. Intervoice-Brite, Inc.,

VD

r\iOJ

CuO

03
CL

397 F.3d 249, 254-55 (5th Cir. 2005).
Analysis
A. Dismissal on 12(b)(1) grounds
Garcia asserts that this Court lacks
subject matter jurisdiction over this dispute,
because Blessett’s complaint asks the Court to
“review, modify, or reverse” state court orders,
which is expressly prohibited by the RookerFeldman doctrine. Dkt. 98 at 17. The Court
agrees and dismisses Blessett’s complaint to
the extent that it “collaterally attack[s] the
state court divorce decree,” “judgments
concerning paternity and child support,” or the
foreclosure order. See Blessett Appellate
Decision, 756 F. App’x at 445-446.
Under federal law, the Supreme Court
has exclusive “authority to review a statecourt judgment.” Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 283 (2005);
28 U.S.C.S. § 1257 (2018). Therefore, a federal
district court cannot modify or reverse a state
court judgment unless Congress authorizes it
to do so. Burciaga v. Deutsche Bank Nat’l Tr.
Co., 871 F.3d 380, 384 (5th Cir. 2017).
Casually referred to as Rooker-Feldman, this
doctrine was created to bar “cases brought by
state-court losers complaining of injuries
caused by state-court judgments rendered
before
the
district
court
proceedings
commenced and inviting district court review
and rejection of those judgments.” Houston v.
Queen, 606 F. App’x 725, 730 (5th Cir. 2015).
In Exxon, the Supreme Court explained that
this doctrine is triggered by the existence of
“four elements: (1) a state-court loser; (2)
alleging harm caused by a state-court
judgment; (3) that was rendered before the

1^
CM

<L>

00
<T3
CL

district court proceedings began; and (4) the
federal suit requests review and reversal of the
state-court judgment.” Id. (quoting Exxon
Mobil Corp., 544 U.S. at 284).
Here, the Court finds that all four
elements of the Rooker-Feldman doctrine are
met. First, the child support and summary
judgment orders in favor of Garcia make
Blessett a state-court loser. Dkt. 31-2; Dkt. 3132. Second, Blessett alleges that he was caused
harm by both orders in his amended
complaint. Dkt. 93. Third, the county court’s
orders were rendered before these proceedings
began. Id. And Fourth, Blessett’s complaint
asks this court to review and reverse the harm
he has experienced as a result of the county
court’s orders. Id. Therefore, Blessett must
now be barred from complaining about injuries
allegedly caused by state court judgments he
refused to appeal.
While Blessett may argue that this
Court should not partially dismiss his
complaint because he asserts independent civil
rights claims in the enforcement and collection
of the child support order, a party cannot
escape Rooker-Feldman by “casting., .a
complaint in the form of a civil rights action.”
Liedtke v. State Bar of Tex., 18 F.3d 315, 317
(5th Cir. 1994); see also Truong v. Bank of Am.,
N.A., 717 F.3d 377, 382 (5th Cir. 2013). Simply
put, the Court does not have jurisdiction to
adjudicate a claim that would require the
Court to review “injuries caused by state-court
judgments.” Land & Bay Gauging,
L.L.C. v. Shor, 623 F. App’x 674, 679
(5th Cir. 2015). Moreover, the Fifth Circuit has
already held that Blessett missed his

00
CM
<u

TO
03
CL

opportunity to complain about due process
violations he may have experienced at state
court. See Blessett Appellate Decision, 756 F.
App’x at 446 (“Moreover, it is of no help
to Blessett that he claims he failed to receive
notice of any hearing in relation to the child
support arrearage judgment of July 13, 2015,
as constitutional questions arising in state
proceedings are to be resolved by the state
courts.”) (internal citations omitted). This is
exactly what Blessett attempts to do here.
Blessett’s amended complaint is a
compilation
of
requests
to
redress
constitutional violations that he should have
appealed in state court:
The Defendant and the Title IV-D
agency and its contractors has failed to
provide sufficient service of process to Mr.
Blessett for this default judgment for child
support arrears for Cause #98FD0817 on July
13, 2015.
The Defendant and Title IV-D agency
and its contractors does not have proof that
procedural due process was afforded to Mr.
Blessett, in the suspension of his Texas driver
license in 2014.
The Defendant Ms. Beverly A. Garcia
and the Title IV-D agency and its contractors
threatened Mr. Blessett with possibility of
arrest, on January 24, 2001 and February 10,
2012, in order to produce private information
such as his IRS federal tax returns, payroll
stubs, vouchers, records of commissions and
all other written records or evidence of income,

CD
CvJ

cu

DO

CD
D_

statements of accounts for all checking or
savings accounts, and all documents showing
income received, under the color of law, for
Cause #98FD0817 which is a violation of his
4th Amendment US constitutional rights. (See
exhibit D page 1 & 3)
Dkt. 93 at 10, 13, 15 (italics added).
However, these claims are so “inextricably
intertwined” with the county court’s judgments
that allowing them to survive dismissal would
effectively cause this Court to sit in “appellate
review” of state court orders. See Weaver v.
Tex. Capital Bank N.A., 660 F.3d 900, 904 (5th
Cir. 2011) (quotations omitted). Accordingly,
these claims must be dismissed for a lack of
subject matter jurisdiction. See Exxon Mobil
Corp., 544 U.S. at 283; see also 28 U.S.C.S. §
1257.
B. Dismissal on 12(b)(6) grounds
Notwithstanding the dismissal of these
claims, the Court finds that Blessett has also
alleged five independent causes of action for
fraud “relating to the enforcement [and
collection] of the state child support
judgments,” over which this Court has subject
matter jurisdiction. See Blessett Appellate
Decision, 756 F. App’x at 445-446. Four of
these claims must be dismissed because they
fail to state a claim upon which relief can be
granted. Fed. R. Civ. P. 12(b)(6). One of the
claims will survive. The Court will address
each of these fraud claims separately.
“Fraud by omission of federal
l.
statutes and Texas family codes”
In his amended complaint, Blessett
asserts five separate “counts” of fraud against
Garcia. This is the first. The Court finds that

O

m<D

OD
03

o_

;

/-

this claim must be dismissed because it fails
Dkt. 93 at 4 (for each of these fraud claims), to
plead
allegations
of fraud with
the
particularity that Rule 9(b) demands. See Fed.
R. Civ. P. 9(b) (“In alleging fraud or mistake, a
party must state with particularity the
circumstances constituting fraud or mistake.”);
see also Benchmark Electronics, Inc., 343 F.3d
at 724.
The elements of a common law fraud
claim are “(1) that a material representation
was made; (2) the representation was false; (3)
when the representation was made, the
speaker knew it was false or made it recklessly
without any knowledge of the truth and as a
positive assertion; (4) the speaker made the
representation with the intent that the other
party should act upon it; (5) the party acted in
reliance on the representation; and (6) the
party thereby suffered injury.” United States ex
rel. Grubbs v. Ravikumar Kanneganti, 565
F.3d 180, 188 (5th Cir. 2009). Therefore, in
order “[t]o satisfy Rule 9(b)’s pleading
requirements [for a fraud claim], [a] plaintiff
must specify the statements contended to be
fraudulent, identify the speaker, state when
and where the statements were made, and
explain why the statements were fraudulent.”
See Southland Sec. Corp. v. INSpire Ins. Sols.
Inc., 365 F.3d 353, 362 (5th Cir. 2004).
Here, Blessett has failed to meet these
pleading requirements for his claim of “[f]raud
by omission of federal statutes and Texas
family codes.” See Dkt. 93 at 4. Blessett alleges
that Garcia committed fraud by applying

*—I

CO
<u

00
03

o_

“penalties under the color of law that [were]
not expressly granted within the Final divorce
decree granted on July 23, 1999.” Dkt. 93 at
10. However, the Court finds that Blessett has
not specified the statements contended to be
fraudulent, when and where a fraudulent
statement was made, or explain why a
particular statement was fraudulent. See
Southland Sec. Corp., 365 F.3d
at 362. And the Court is not required to
strain itself to find an interpretation of
Blessett’s complaint that would satisfy Rule
9(b)’s strict pleading requirements. See Barrie,
397 F.3d at 254-55. Indeed, this failure to
plead with particularity is notable considering
that the Court has already allowed Blessett to
amend his complaint twice. Dkt. 1 (for original
complaint); Dkt. 22 (for second amended
complaint); Dkt. 93 (for third amended
complaint). At the last hearing in this matter,
the Court even alerted Blessett that it would
consider dismissing this case with prejudice if
Blessett
failed
to
plead
fraud
with
particularity in his amended complaint. Dkt.
91. Having failed to adhere to these
instructions, the Court now dismisses this
claim with prejudice. See Hart v. Bayer Corp.,
199 F.3d 239, 247 n.6 (5th Cir. 2000) (A district
court may dismiss a plaintiffs complaint with
prejudice if it fails “to plead [fraud] with
particularity after being afforded repeated
opportunities to do so.”).
ii.
“Fraud
by
use
of
an
administrative action under the color of
law”
In his second “count,” Blessett alleges
that Garcia committed “[f]raud by use of an

Csl

m<L>

tuO
03

Cl

administrative action under the color of law.”
Dkt. 93 at 4. The gravamen of this complaint
appears to be that Garcia committed fraud by
assisting in “[t]he suspension of Mr. Blessett’s
Texas driver license., .under the color of law.”
Dkt. 93 at 13. The Court finds that this claim
must also be dismissed because it fails to plead
allegations of fraud with the particularity that
Rule 9(b) demands. See Fed. R. Civ. P. 9(b); see
also Benchmark Electronics, Inc., 343 F.3d at
724. Specifically, the Court finds that Blessett
failed to plead the statements contended to be
fraudulent, when and where a fraudulent
statement was made, or explain why a
particular statement was fraudulent. See
Southland Sec. Corp., 365 F.3d at 362.
Accordingly, the Court now dismisses this
claim with prejudice for the reasons stated
above. See Hart, 199 F.3d at 247 n.6.
“Fraud by inducement or
in.
coercion”
In his third “count,” Blessett alleges that
Garcia committed “[fjraud by inducement or
coercion.” Dkt. 93 at 4. The gravamen of this
complaint appears to be that Garcia committed
fraud by “threatening] Mr. Blessett with [the]
possibility of arrest, on January 24, 2001 and
February 10, 2012, in order to produce private
information such as his IRS federal tax
returns, payroll stubs, vouchers, records of
commissions and all other written records or
evidence of income....” Dkt. 93 at 15. The Court
finds that this claim must also be dismissed
because it fails to plead its allegations of fraud
with particularity. See Fed. R. Civ. P. 9(b); see
also Benchmark Electronics, Inc., 343 F.3d at
724. Specifically, the Court finds that Blessett

m
m
QJ

ao
ro

Q_

failed to plead the statements contended to be
fraudulent, when and where a fraudulent
statement was made, or explain why a
particular statement was fraudulent. See
Southland Sec. Corp., 365 F.3d at 362.
Accordingly, the Court now also dismisses this
claim with prejudice. See Hart, 199 F.3d at 247
n.6.
iv.
“Fraud
by
Omission
to
provide notice as ordered by a Judge”
In his fourth “count,” Blessett alleges
that Garcia committed “[fjraud by Omission to
provide notice as ordered by a Judge.” Dkt. 93
at 4. The gravamen of this complaint appears
to be that Garcia committed fraud by “fail[ing]
to provide notice to Mr. Blessett as ordered by
the Judge on May 24, 2017, [which] resulted in
the failure of Mr. Blessett to appear [at] the
status conference scheduled on June 8, 2017.”
Dkt. 93 at 24. The Court finds that this claim
must also be dismissed because it fails to plead
its allegations of fraud with particularity. See
Fed. R. Civ. P. 9(b); see also Benchmark
Electronics, Inc., 343 F.3d at 724. Specifically,
the Court finds that Blessett failed to plead the
statements contended to be fraudulent, when
and where a fraudulent statement was made,
or explain why a particular statement was
fraudulent. See Southland Sec. Corp., 365 F.3d
at 362. Accordingly, the Court dismisses this
claim with prejudice as well. See Hart, 199
F.3d at 247 n.6.
“Fraud
by
Perjury
and
v.
violation of Public Policy rights to
property”
In his fifth “count,” Blessett alleges that
Garcia committed “[fjraud by Perjury and

no
OJ
DjO
CO
CL

violation of Public Policy rights to property.”
Dkt. 93 at 4. In this claim Blessett alleges that
Garcia committed fraud by submitting
affidavits, which falsely stated that Blessett
did “not own any real or personal property that
is exempt from the claims in this cause” and
that Blessett did not own a “homestead.” Dkt.
93 at 18-19. Additionally, Blessett alleges that
Garcia “misrepresented” herself “as a creditor
in the Plaintiffs exempt property.” Id.
Construing Blessett’s complaint liberally, the
Court finds that Blessett has plead this
allegation of fraud with sufficient particularity
to survive a rule 12(b)(6) motion to dismiss.
See Kaltenbach v. Richards, 464 F.3d 524, 526
(5th Cir. 2006) (The court shall construe the
complaint liberally in favor of the plaintiff); see
also Benchmark Electronics, Inc., 343 F.3d at
724 (for the fraud pleading standards). This
claim for fraud will remain in the case.
Conclusion
For the foregoing reasons, Garcia’s
motion is GRANTED IN PART and DENIED
IN
PART.
Accordingly,
the
Court
DISMISSES the following claims alleged by
Blessett: (1) “[fjraud by omission of federal
statutes and Texas family codes,” (2) “[fjraud
by use of an administrative action under the
color of law,” (3) “[f]raud by inducement or
coercion,” (4) “[fjraud by Omission to provide
notice as ordered by a Judge,” and (5) all
claims that require the Court to collaterally
review the state court judgments. Blessett’s
claim for “[fjraud by [pjerjury and violation of
[pjublic [pjolicy rights to property” will remain
in this case.
SIGNED at Galveston, Texas, this 29th

LD

m<D

CUD

CD
Q_

day of August, 2019.
United States District Judge

<sO
00

d)

ro

D_

Appendix E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
CIVIL ACTION NO. 3:18-cv-00137
JOE BLESSETT,
Plaintiff,
VS.
BEVERLY ANN GARCIA,
Defendant.
October 23. 2019
MEMORANDUM OPINION AND
ORDER
JEFFREY V. BROWN, UNITED
STATES DISTRICT JUDGE
Before the Court is Beverly Ann
Garcia’s Motion to Dismiss. Dkt. 98. On
August 29, 2019, the Court entered a
memorandum opinion and order granting
in part and denying in part the same
motion, which resulted in the dismissal of
all but one of the plaintiffs claims. Dkt.
107 at 12. Upon reconsideration, and for
the reasons discussed below, the Court has

on<D

CtO

<TJ
Q-

determined that the motion should be
granted in its entirety. Accordingly, the
Court vacates its ruling as to Blessett’s sole
remaining claim, grants Garcia’s motion in
its entirety, and dismisses all the plaintiffs
claims with prejudice.

3 FACTUAL BACKGROUND
AND PRIOR PROCEEDINGS
On July 23, 1999, a Galveston
County court entered a final divorce decree
ending the marriage between the plaintiff,
Joe Blessett, and Garcia. Dkt. 31-1. The
decree also established Blessett’s paternity
over a child born during the marriage and
ordered him to pay $800 per month in child
support. Id. at 11. Then, after sixteen years
passed, during which Blessett consistently
defaulted on his child-support obligation,
the county court revisited the case; it
entered an order in favor of Garcia
confirming child-support arrearage in the
amount of $131,923.14. Dkt. 31-2.
Almost one year later, Garcia used
that order to apply for a judicial writ of
withholding to garnish Blessett’s wages
and place a child-support lien on some of
Blessett’s real property. Dkts. 31-3, 31-4. In
response, Blessett filed a lawsuit against
Garcia to lift the child-support liens. Dkt.
31-6. Garcia answered the lawsuit and
asserted counterclaims of her own, seeking
“a cumulative money judgment” and a
declaratory judgment that Blessett did not
own any real property that was exempt
from foreclosure. Dkt. 31-17. On June 30,
2017, the Galveston County court granted
summary judgment in favor of Garcia on

00
OO
bO

ro

CL

determined that the motion should be
granted in its entirety. Accordingly, the
Court vacates its ruling as to Blessett’s sole
remaining claim, grants Garcia’s motion in
its entirety, and dismisses all the plaintiff s
claims with prejudice.

3 FACTUAL BACKGROUND
AND PRIOR PROCEEDINGS
On July 23, 1999, a Galveston
County court entered a final divorce decree
ending the marriage between the plaintiff,
Joe Blessett, and Garcia. Dkt. 31-1. The
decree also established Blessett’s paternity
over a child born during the marriage and
ordered him to pay $800 per month in child
support. Id. at 11. Then, after sixteen years
passed, during which Blessett consistently
defaulted on his child-support obligation,
the county court revisited the case; it
entered an order in favor of Garcia
confirming child-support arrearage in the
amount of $131,923.14. Dkt. 31-2.
Almost one year later, Garcia used
that order to apply for a judicial writ of
withholding to garnish Blessett’s wages
and place a child-support lien on some of
Blessett’s real property. Dkts. 31-3, 31-4. In
response, Blessett filed a lawsuit against
Garcia to lift the child-support liens. Dkt.
31-6. Garcia answered the lawsuit and
asserted counterclaims of her own, seeking
“a cumulative money judgment” and a
declaratory judgment that Blessett did not
own any real property that was exempt
from foreclosure. Dkt. 31-17. On June 30,
2017, the Galveston County court granted
summary judgment in favor of Garcia on

00
00
<V

ClQ
05
Q_

each of her counterclaims. Dkt. 31-32.
Blessett neither filed a motion for new trial
nor appealed the county court’s order. Dkt.
31 at 11. Subsequently, Garcia foreclosed
on
Blessett’s property,
which
was
ultimately sold at public auction in partial
satisfaction of the child-support arrears. Id.
Since Blessett’s property was sold at
public auction, he has filed this and several
other lawsuits in this Court to collaterally
attack the state-court order that led to the
foreclosure of his property.42 On March 4,
2019, the Court dismissed this suit under
the
Rooker-Feldman43
doctrine,
determining it lacked subject-matter
jurisdiction to collaterally review the statecourt judgments. Dkt. 82. Two days later,
however, the Fifth Circuit partially vacated
an order, also on Rooker-Feldman grounds,
dismissing a suit
Blessett had filed against the
42

See Blessett v. Tex. Office ofAttorney Gen.
Galveston Cty. Child Support Enft Div., 756 Fed.
App’x 445 (5th Cir. 2019); Blessett v. Sinkin Law
Firm, No. 3U7-CV-370, 2018 WL 1932386, 2018
U.S. Dist. LEXIS 67683 (S.D. Tex. Apr. 23, 2018)
(the Court granted the defendant’s motion to dismiss);
Blessett v. Jacoby, No. 3U8-CV-00153, 2018 WL
5014146, 2018 U.S. Dist. LEXIS 177837 (S.D. Tex.
Oct. 16, 2018) (the Court granted the defendant’s
motion to dismiss); Blessett, et al. v. Galveston Cty.
Child Support Div., et al., No. 3U8-CV-00415 (S.D.
Tex. Feb. 14, 2018) (parties stipulated to dismissal).
43
Rooker v. Fidelity Tr. Co., 263 U.S. 413, 44
S.Ct. 149, 68 L.Ed. 362 (1923); Dist. of Columbia Ct.
ofApp. v. Feldman, 460 U.S. 462, 103 S.Ct. 1303, 75
L.Ed.2d 206(1983).

CT)
OO
CD

CUD
CD
Q_

Galveston County Child Support Division
of the Texas Attorney General’s Office.
Blessett v. Tex. Office of Attorney Gen.
Galveston Cty. Child Support Enft Div.,
756 Fed. App’x 445 (5th Cir. 2019). Out of
an abundance of caution, the Court sua
sponte withdrew its order of dismissal and
allowed Blessett an opportunity to amend
his complaint, consistent with the Fifth
Circuit’s order in the parallel case. Dkt. 88.
In his amended complaint, Blessett
asserted five separate “counts” of fraud
against Garcia. Dkt. 93 at 8-26. Although
not expressly pleaded, Blessett also
asserted a litany of allegations collaterally
attacking the state-court divorce decree,
state-court judgments concerning paternity
and child support, and the state-court
foreclosure order. See generally id. Garcia
moved to dismiss Blessett’s amended
complaint under Federal Rules of Civil
Procedure 12(b)(1), 12(b)(6), and Texas
Civil Practice and Remedies Code §
27.003(a). Dkt. 98.
On August 29, 2019, the Court issued
its order dismissing Blessett’s complaint on
jurisdictional grounds to the extent he
“ask[ed] the Court to ‘review, modify, or
reverse’ state [-] court orders, which is
expressly prohibited by the RookerFeldman doctrine.” Dkt. 107 at 4 (quoting
Blessett, 756 Fed. App’x at 445). The
Court’s order also dismissed four of
Blessett’s five fraud claims for failure to
state a claim upon which relief can be
granted: “[f]raud by omission of federal
statutes and Texas family codes” (Count 1);

O
CL)
DO
CD
Q_

“[f]raud by use of an administrative
enforcement action under the color of law”
(Count 2); “[fjraud by [inducement and
[c]oercion” (Count 3); and “[f]raud by
[o] mission to provide notice as ordered by a
[jjudge” (Count 5). Id. at 7-11. In its
analysis, the Court determined that, for
each of these claims, Blessett failed to
specify the representations he contended to
be fraudulent, identify when or where the
fraudulent representations were made, or
explain why the particular representations
were fraudulent. See id.44
But the Court concluded that
Blessett pleaded his remaining fraud claim,
“[f]raud by [pjerjury and violation of
[p]ublic [p]olicy rights to property,” with
sufficient particularity to survive Rule
12(b)(6). Id. at 11. The Court reasoned:
In this claim Blessett
alleges that Garcia committed
fraud by submitting affidavits,
which falsely stated that
Blessed did not own a
Additionally,
“homestead.”
Blessett alleges that Garcia
“misrepresented” herself “as a
creditor in the Plaintiffs
exempt property.” Construing
Blessett’s complaint liberally,
the Court finds that Blessett
has plead[ed] this allegation of
44 After vacating its first dismissal order, the Court
alerted Blessett that it would consider dismissing this
case with prejudice if he failed to plead fraud with
particularity in his amended complaint. Dkt. 91.

*—I
CD
00
CD
D_

1

sufficient
fraud
with
particularity to survive a rule
12(b)(6) motion to dismiss.
Id. (internal citations omitted).
Shortly after the Court ruled,
Blessett filed two motions—one seeking to
“amend” and the other “objecting to” the
Court’s order. Dkts. 108 and 109. The
latter, which seeks a declaration that the
property at issue “was protected under the
Texas Homestead Exemption,” is without
merit
and
warrants
no
further
consideration. See Dkt. 109.
Blessett’s motion to amend, however,
does deserve a brief discussion. Essentially,
it can be taken as a request that the Court
reconsider its decision to dismiss most of
Blessett’s claims. See Dkt. 108 at 1-2.
Garcia filed a response to the motion to
amend. Dkt. 114. In it, she both opposes
the relief Blessett seeks and argues that
his motion is inappropriate under the rules
of civil procedure. Id. at 3. She further
requests, in the alternative, if the Court
revisits its ruling, that it should finish the
job and dismiss Blessett’s sole remaining
claim. Id. at 3-4.
LEGAL STANDARD
for
ii. Standard
Reconsideration
Because the Court’s order of August
29, 2019, did not dispose of all the claims
pending in this case, it “may be revised at
any time.” Fed. R. Civ. P. 54(b) (stating
that any order adjudicating fewer than all
the claims pending in a case is subject to
revision up until the time a final judgment

CM
CD

CUD
03

CL

is entered). So Blessett’s motion that the
Court revisit its ruling was an appropriate
request under the rules.
But Blessett did not need to move for
reconsideration in order for the Court to
revisit its ruling; district courts “possess[|
the
inherent
procedural
power
to
reconsider,
rescind,
or
modify
an
interlocutory order for cause seen by it to
be sufficient.” Melancon v. Texaco, Inc., 659
F.2d 551, 553 (5th Cir. Unit A Oct. 1981);
see Zarnow v. City of Wichita Falls, Tex.,
614 F.3d 161, 171 (5th Cir. 2010) (“[W]hen
a district court rules on an interlocutory
order, it is ‘free to reconsider and reverse
its decision for any reason it deems
sufficient, even in the absence of new
evidence or an intervening change in or
clarification of the substantive law.’”)
(citing Lavespere, 910 F.2d at 185).
Although neither Rule 54(b) nor the Fifth
Circuit articulates a standard by which to
decide whether reconsideration is merited,
St. Paul Mercury Ins. Co. v. Fair Grounds
Corp., 123 F.3d 336, 339 (5th Cir. 1997), it
is well-settled that the authority to
consider such a motion “rests within the
discretion of the court.” Dos Santos u. Bell
Helicopter Textron, Inc. Dist., 651 F. Supp.
2d 550, 553 (N.D. Tex. 2009).
12(b)(6)
Rule
m.
Dismissal
When considering a Rule 12(b)(6)
motion to dismiss, the court must take the
well- pleaded factual allegations of the
complaint as true, viewing them in the
light most favorable to the plaintiff. In re

OO
0)
00
CD
Q_

Katrina Canal Breaches Litig., 495 F.3d
191, 205 (5th Cir. 2007) (citations and
quotations omitted). A plaintiffs pleading
must provide “enough facts to state a claim
to relief that is plausible on its face.” Bell
Atlantic Corp. v. Twombly, 550 U.S. 544,
570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content
that allows the court to draw the
reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (citing id.
at 556). On the other hand, a “pleading
that offers ‘labels and conclusions’ or a
‘formulaic recitation of the elements of a
cause of action will not do.’” Id.
In addition to the plaintiffs
pleadings, in taking up a motion to dismiss,
the Court may consider offensive extrinsic
evidence without converting the motion to
dismiss into a motion for summary
judgment,
including
any
documents
attached to the live pleading and any
documents attached to the motion to
dismiss that are central to the claim and
referred to in the live pleading. Sivertson v.
Citibank, NA. as Tr. for Registered Holders
of WAMU Asset-Back Certificates WAMU
Series No. 2007-HE2 Tr., 390 F. Supp. 3d
769, 780 (E.D. Tex. 2019) (citing Lone Star
Fund V (U.S.), L.P. v. Barclays Bank PLC,
594 F.3d 383, 387 (5th Cir. 2010)). The
Court may also take judicial notice of an
“adjudicative fact,” including public filings
in other court cases. Fed. R. Evid. 201;
Thomas u. Beaumont Indep. Sch. Dist., No.
1:15-CV-112, 2016 WL 922182, at *3 (E.D.

CD
tXO
Q_

Tex. Feb. 12, 2016) (holding that a court
can consider filings in plaintiff s state court
case in analyzing the motion to dismiss as
a matter of public record), report and
recommendation adopted, No. 1:15-CV-112,
2016 WL 899870 (E.D. Tex. Mar. 8, 2016)
(citing Van Duzer v. U.S. Bank Ass’n., 995
F.Supp.2d 673, 684 (S.D. Tex. 2014) (Lake,
J)).
Rule 9(b)’s Heightened
IV.
Pleading Standard
Fraud is subject to a heightened
pleading standard. Fed. R. Civ. P. 9(b) (“In
alleging fraud or mistake, a party must
state with particularity the circumstances
constituting fraud or mistake.”), The
elements of a common-law fraud claim are
“(1) that a material misrepresentation was
made; (2) the representation was false; (3)
when the representation was made, the
speaker knew it was false or made it
recklessly without any knowledge of the
truth and as a positive assertion; (4) the
speaker made a representation with the
intent that the other party should act upon
it; (5) the party acted in reliance on the
representation; and (6) the party thereby
suffered an injury.” United States ex rel.
Grubbs v. Ravikumar Kanneganti, 565
F.3d 180, 188 (5th Cir. 2009) (citing
Allstate Ins. Co. v. Receivable Fin. Co., 501
F.3d 398, 406 (5th Cir. 2007) (interpreting
Texas law)). Therefore, “[t]o satisfy Rule
9(b)’s pleading requirement [for a fraud
claim], [a] plaintiff must specify the
statements contended to be fraudulent,
identify the speaker, state when and where

LO
CUD

ro
CL

the statements were made, and explain
why the statements were fraudulent.” See
Southland Sec. Corp. v. INSpire Ins. Sols.
Inc., 365 F.3d 353, 362 (5th Cir. 2004).
5 ANALYSIS
In his amended complaint, Blessett
alleges five independent causes of action
for fraud “relating to the enforcement [and
collection] of the state child support
judgments, over which this Court has
subject matter jurisdiction.” Dkt. 107 at 7.
The Court adopts its prior analysis and
decision regarding the four previously
dismissed fraud claims— concluding that,
as to those allegations, Blessett has failed
to state a claim upon which relief may be
granted. Id. at 7-11. As for Blessett’s sole
remaining fraud claim, “[f]raud by
[p]erjury and violation of [p]ublic [pjolicy
rights to property,” the Court likewise
rules that he has failed to state a claim
upon which relief may be granted.
In January 2017, Blessett filed a
“Motion for Partial Release of Child
Support Lien” in state court in Galveston
County. See Dkt. 93 at 16-17. In the course
of that proceeding, Garcia’s attorney, Stett
Jacoby, swore out an affidavit asserting
that Blessett was not entitled to homestead
protection and filed it in the Galveston
County court. These representations in
that affidavit form the basis of Blessett’s
sole remaining fraud claim:
vi. Blessett “judicially admitted that
he does not own any real property that
is exempt from the claims in this cause”;
vii. Blessett’s claim that “he owns a

tD
QJ

tXO
Cl.

homestead is untrue”;
viii. “Garcia
was
a
creditor
in
[Blessett’s] exempt property”; and
ix. The homestead in question was
“currently the subject of litigation.” Id. at
18-21.
Fatally, however, none of these
representations is attributable to Garcia.
Instead, every allegation regarding the
allegedly fraudulent representations begins
with the caveat: “On May 12, 2017, Ms.
Beverly Garcia’s legal counsel[,] Atty. Stett
M[.] Jacoby[,] submitted an affidavit on her
behalf, to the Galveston County Public
Records that misrepresented . . .” See Dkt.
93 at 17-22.
But Jacoby did not submit the
affidavit on Garcia’s behalf—a crucial fact
Blessett
omits
from
his
amended
complaint. Instead, Jacoby submitted the
affidavit on behalf of his law firm, which
Blessett had also sued in the same
proceedings.45 See Dkt. 93 at 29 (“I am
authorized by the Sinkin Law Firm to
testify as its representative with respect to
these matters.”). On its face, the affidavit
shows Jacoby testified as a representative
of the Sinkin Law Firm and that his
testimony was based upon his “personal
45 A court may take judicial notice of a plaintiffs
state-court filings as a matter of public record, which
includes Blessett’s citation of service on the Sinkin
Law Firm. Dkt. 31-10 (citation of service); see
Thomas, No. 1:15-CV-112, 2016 WL 922182, at *3
(holding that a court can consider filings in plaintiffs
state-court case in analyzing the motion to dismiss as
a matter of public record) (citing Van Duzer, 995
F.Supp.2d at 684)).

(D
00

ru

Cl

knowledge of the facts contained herein . .
Id. at 29. There is not a single allegation
in the amended complaint that Garcia
fraudulent
the
allegedly
made
representations, knew the contents of the
affidavit, or even knew the affidavit
existed. See id. at 17-22. In fact, the only
references to Garcia in Jacoby’s affidavit
are two sentences in which he stated he “is
handling the [above-] captioned cause on
behalf of judgment creditor/child support
obligee
Beverly
Garcia”
and
“has
represented Garcia in this matter since
March 2016 and continues to represent
her.” Id. at 29-30.
Because the affidavit’s allegedly false
statements
were
Jacoby’s—and
not
Garcia’s— they cannot form the basis of a
fraud claim against Garcia. The statements
cannot be attributed to Garcia, much less
any knowledge by her that they were false,
any reckless disregard by her of their
veracity, or any intent by her that Blessett
rely on them. See Allstate, 501 F.3d at 406
(listing the elements of a Texas-law fraud
claim). The failure by Blessett to attribute
any allegedly fraudulent statements to
Garcia, as opposed to anyone else, violates
Rule 9(b)’s requirement of pleading fraud
allegations with particularity. See Fed. R.
Civ. P. 9(b); see also Pegasus Holdings v.
Veterinary Ctrs. of Am., Inc., 38 F. Supp. 2d
1158, 1163 (C.D. Cal. 1998). Accordingly,
Blessett’s allegations are insufficient to
state a claim for fraud. See Pegasus
Holdings, 38 F. Supp. 2d at 1163
(“Plaintiffs’ failure to attribute any

00
<u

CUD
(T3
D_

misleading statements or omissions to the
non-speaking defendants violates Rule 9(b)
of the Federal Rules of Civil Procedure’s
requirement
of
pleading
with
particularity.”).
Finally, for the sake of completeness,
although the docket report in this case lists
Jacoby as a defendant in this matter,
Jacoby has not been served. Thus, the only
defendant in this case is Garcia. See
Lifemark Hosps., Inc. v. Liljeberg Enters.
(In re Liljeberg Enters.), 304 F.3d 410, 468
(5th Cir. 2002) (“It is elementary that one
is not

CT)
CD
&0

03
Q_

bound by a judgment in personam
resulting from litigation in which he is not
designated
as a party or to which he has not
been made a party by service of process.”)-46
k k k

For the foregoing reasons, the Court
grant’s Garcia’s motion to dismiss and
dismisses this case with prejudice.
SIGNED at Galveston, Texas, on this
23rd day of October, 2019.

JEFFREY VINCENT BROWN
UNITED STATES DISTRICT JUDGE

1

Moreover, if Jacoby were a defendant in this case, it
would deprive the Court of jurisdiction as Jacoby, like
Blessett, is a resident of Texas, a fact which Blessett
expressly pleaded in a separate lawsuit against Jacoby
and his law firm. See Blessett v. Sinkin Law Firm,
3U7-CV-370, 2018 WL 1932386, at *1 n.6 (S.D. Tex.
Apr. 23, 2018) (“Blessett does not assert the Court has
diversity jurisdiction. In fact, his Complaint states the
parties are not diverse.”).

O
LO

(U
&0
03

CL

